SPECIAL INQUIRY ON OFFICE OF SPECIAL COUNSEL WHISTLEBOLOWER
DISCLOSURE FILE NO. DI-10-1231: ALLEGATIONS REGARDING WESTERN AREA
POWER ADMINISTRATION'S DESERT SOUTHWEST REGION, OAS-SR-11-01



The U.S. Office of Special Counsel requested the Department investigate a whistleblower
disclosure that employees at the Western Area Power Administration's Desert Southwest Region
engaged in conduct that constituted violation of law, rule or regulation; gross mismanagement;
and gross waste of funds. Specifically, the disclosure alleged that Western had (a) improperly
provided 90 megawatts per hour of free electric transmission to a full-service energy provider;
and (b) violated Federal Energy Regulatory Commission Orders by continuing to allow the
energy provider to receive free transmission. Our review did not substantiate the allegations.
Specifically, we found no evidence that Western provided 90 megawatts per hour of free electric
transmission to the energy provider, nor did we find that Western was in violation of the subject
Federal Energy Regulatory Commission Orders. This matter was referred to the U.S. Office of
Special Counsel. See http://www.osc.gov/FY%202012%20A.html for final disposition.
